No. 19-1184

In the Supreme Court of the United States
________
NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI;
KATHLEEN LASLOW; AND PATRICK MALLEY, PETITIONERS
v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL; MAYOR
OF PITTSBURGH, RESPONDENTS
________
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

________
BRIEF OF
THE PRO-LIFE UNION OF GREATER
PHILADELPHIA,
AMICUS CURIAE SUPPORTING PETITIONERS
________
RANDALL L. WENGER
Counsel of Record
JEREMY L. SAMEK
Independence Law Center
23 N. Front Street, First Floor
Harrisburg, PA 17101
(717) 657-4990
rwenger@indlawcenter.org

ANDREA L. SHAW
Law Office of
Andrew H. Shaw, P.C.
2011 W. Trindle Road
Carlisle, PA 17013
(717) 243-7135
andrea@ashawlaw.com

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTEREST OF AMICUS CURIAE ........................... 1
INTRODUCTION ...................................................... 2
SUMMARY OF THE ARGUMENT ........................... 4
ARGUMENT .............................................................. 5
I.

Buffer zones affect sidewalk counselors in
unique ways such that the effect on them is
particularly detrimental to their speech….…. 7

II.

The buffer zone at issue is just as or more
offensive to free speech than those in
Madsen, Schenk, Hill, and McCullen............. 12
A. The Pittsburgh buffer zone is just as
offensive as the buffer zones struck
down
in
Madsen
and
both
distinguishable and more offensive than
the portion of buffer zone upheld in
Madsen………………………………........... 12
B. The Pittsburgh ordinance is just as
offensive to free speech as the floating
buffer zone that was struck down in
Schenck and is both distinguishable and
more offensive than the fixed buffer
zone upheld in Schenck. ………………...... 15

ii
C. The buffer zone in Pittsburgh is
distinguishable from and more offensive
to free speech than the buffer zone in
Hill…………………………...……………… 18
D. The ordinance in Pittsburgh is just as
offensive to Free Speech as the buffer
zone struck down by this Court in
McCullen. ………………………………...... 22
CONCLUSION ......................................................... 24

iii
TABLE OF AUTHORITIES
Cases
Boos v. Barry, 485 U.S. 312 (1988) ...................... 7, 15
Bruni v. City of Pittsburgh,
941 F.3d 73 (3d Cir. 2019) ................................... 2-3
Erznoznik v. Jacksonville,
422 U.S. 205 (1975) ................................................. 6
FCC v. League of Women Voters of Cal.,
468 U.S. 364 (1984) .............................................. 6-7
Frisby v. Schultz, 487 U.S. 474 (1988) .................... 13
Heffron v. International Soc. for Krishna
Consciousness, Inc., 452 U.S. 640 (1981) ............. 21
Hill v. Colorado, 530 U.S. 703 (2000) ................. 18-21
Kovacs v. Cooper, 336 U.S. 77 (1949) ...................... 21
Madsen v. Women’s Health Ctr.,
512 U.S. 753 (1994) ........................................ passim
McCullen v. Coakley,
573 U.S. 464 (2014) ........................................ passim
Meyer v. Grant, 486 U.S. 414 (1988) ....................... 11
Schenck v. Pro-Choice Network of W. N.Y.,
U.S. 357 (1997) ............................................... passim

iv

Other Authorities
City of Pittsburgh, City of Pittsburgh Announces
More Social Distancing Procedures, March 11,
2020 ......................................................................... 3
Joint Appendix, Bruni v. City of Pittsburgh
(3d Cir. Apr. 13, 2018) ................................. 2, 4-5, 7
Petition for Writ of Certiorari....................... 5, 7-8, 10
Pitts. Code § 623.04.................................................... 3

1
INTEREST OF AMICUS CURIAE1
Amicus Curiae, the Pro-Life Union of Greater
Philadelphia, provides various resources to those with
unplanned pregnancies in southeast Pennsylvania.
These include counseling, social services, prenatal
vitamins, parenting classes, moms’ groups, pregnancy
testing, ultrasounds to confirm pregnancy, material
resources, adoption resources, post-pregnancy
support, and relationship and marriage support
through pregnancy resource centers including
AlphaCare, Cradle of Hope, Hope Pregnancy Center,
and Save a Life, International. Amicus also provides
housing for pregnant women, birth moms, and their
children, through Guiding Star Ministries, Our
Lady’s House, Good Counsel Homes, and Mother’s
Home. These resources empower women to
independently navigate the complexities of pregnancy
and parenthood. Core to its efforts is a team of
roughly 150 sidewalk counselors affiliated with the
Pro-Life Union who serve pregnant women entering
abortion clinics by connecting them with information,
resources, and a caring ear. The Pro-Life Union of
Greater Philadelphia appears as amicus to discuss
the impact of the misguided opinion of the Court of
Appeals on its ability to serve those experiencing an
unwanted pregnancy.

1

No counsel for a party authored this brief in whole or in part,
and no party, party’s counsel, or any person other than amicus
curiae or its counsel contributed money intended to fund
preparation or submission of this brief. This brief is filed with
consent of the parties.

2
INTRODUCTION
The City of Pittsburgh adopted an ordinance
aimed at “protecting the listen[er] from unwanted
communication” outside of abortion clinics. Joint
Appendix, Bruni v. City of Pittsburgh (3d Cir. Apr. 13,
2018) (“JA”) at 402a. Petitioners, like those working
with amicus Pro-Life Union of Greater Philadelphia,
are sidewalk counselors outside of abortion clinics.
The Court of Appeals aptly described sidewalk
counseling:
Plaintiffs do not physically block
patients’ ingress or egress or engage in
violent tactics. Instead, they engage in
what they call “sidewalk counseling,”
meaning
“calm”
and
“quiet
conversations” in which they “offer
assistance and information to” women
they believe are considering having an
abortion “by providing them pamphlets
describing local pregnancy resources,
praying, and . . . peacefully express[ing]
[a] message of caring support.”
Bruni v. City of Pittsburgh, 941 F.3d 73, 80 (3d Cir.
2019).
The City of Pittsburgh passed an ordinance
stating that persons shall not “congregate, patrol,
picket or demonstrate in a zone extending fifteen (15)
feet from any . . . health care facility.” Pitts. Code §

3
623.04.2 Yet the ordinance went on to exempt others,
such as “agents of the . . . clinic.” Id. Because both
parties have always understood the ordinance’s broad
language to mean that sidewalk counselors are
prohibited from one-on-one conversations within this
fifteen-foot buffer, see Bruni, 941 F.3d at 84, the
sidewalk counselors did not enter that zone, see id. at
85 n.12, to the detriment of effectively reaching their
target audience. As the sidewalk counselors
associated with the instant amicus affirm, effective
sidewalk counseling requires the kind of natural,
loving interaction that is undercut when a person
needs to raise their voice to be heard at a distance.
While the City made it near to impossible to reach the
sidewalk counselors’ intended audience, it still
permitted clinic workers to speak with persons within
the buffer zone. See § 623.04 (exempting clinic
workers). Thus, one side had a voice while the other
did not, subjecting sidewalk counselors to viewpoint
discrimination.
The sidewalk counselors working with the ProLife Union of Greater Philadelphia fear that if buffer
zones like Pittsburgh’s are permitted in other
Pennsylvania municipalities, their ability to serve
their intended audience will be undermined. Worse,
they fear the same kind of viewpoint targeting that
their counterparts in Pittsburgh suffered. For these
2

It should not go unnoticed that the City of Pittsburgh has
deemed 6 feet a sufficient distance from others to be safe from
Coronavirus or COVID-19 but here requires no less than 15 feet
to be “safe” from pro-life speech. See City of Pittsburgh, City of
Pittsburgh Announces More Social Distancing Procedures,
March 11, 2020, https://pittsburghpa.gov/press-releases/pressreleases/3831.

4
reasons, and in order to give clear guidance to the
courts of appeals, amicus requests that this Court
grant certiorari.
SUMMARY OF ARGUMENT
The City of Pittsburgh passed an ordinance with
broad language designed to silence pro-life speech
(speech encouraging options other than abortion). See
JA402a. Consistent with its intention, the City has
used the law to force sidewalk counselors outside of a
15-foot buffer zone around the entrance to abortion
clinics. This restriction has presented a significant
harm to sidewalk counselors, who endeavor to help
women entering abortion clinics by engaging them in
one-on-one conversation. Without the proximity, both
conversation and leafletting are largely undermined.
Though this Court recognized the necessity of
proximity for the speech rights of sidewalk counselors
and the severe burden lack of conversational distance
put on their activities, see McCullen v. Coakley, 573
U.S. 464, 487 (2014), the Third Circuit’s analysis
failed to adequately address the free speech
deprivation that Petitioners have experienced. The
reach of the buffer zone that Petitioners were forced
to live under, depriving them of the ability to
effectively engage in sidewalk counseling, is in many
instances worse than the buffer zones in the four
principal cases this Court has examined. While
McCullen’s intent was to protect the speech rights of
sidewalk counselors, it appears that decision did not
do enough to protect sidewalk counselors in situations
like this.

5

ARGUMENT
The ordinance in Pittsburgh was created to
suppress unwanted speech, a purpose acknowledged
by its prime sponsor. See JA402a. In this regard, the
speech of sidewalk counselors was in view. Indeed, it
has been the City’s understanding that this prohibits
the speech of sidewalk counselors — because it
involves the subject of abortion — but speech on other
subjects has been permitted in the zone. See Petition
for Writ of Certiorari at 8 (collecting citations to the
record). If the City had a problem with sidewalk
counselors undermining safety or access, it could have
employed existing laws — or if that failed — sought a
narrow injunction. Instead, the City has used a
broadly worded ordinance to achieve its goal of
suppressing the First Amendment free speech rights
of sidewalk counselors because of the content of their
speech — due to its stated goal of “protecting the
listen[er] from unwanted communication” outside of
abortion clinics. JA402a.
Despite this Court’s intention in McCullen of
protecting the free speech rights of sidewalk
counselors at abortion clinics from unconstitutional
buffer zones, these buffer zones continue to be used to
restrict the manner of free speech in which sidewalk
counselors need to engage if they are going to reach
their audience. This Court should grant cert because
the McCullen decision did not do enough to prevent
lower courts from applying special rules to speech
restrictions outside of abortion clinics, resulting in the
opposite of what McCullen intended.

6
It is extremely important to protect the speech of
sidewalk counselors because it is core speech that
occurs on public streets and sidewalks, traditional
public fora, and it is uniquely there that a person may
not be able to “tune out” a message. See McCullen, 573
U.S. at 476. “In light of the First Amendment’s
purpose ‘to preserve an uninhibited marketplace of
ideas in which truth will ultimately prevail,’ this
aspect of traditional public fora is a virtue, not a vice.”
Id. (quoting FCC v. League of Women Voters of Cal.,
468 U.S. 364, 377 (1984)). “As a general rule, in such
a forum the government may not ‘selectively . . . shield
the public from some kinds of speech on the ground
that they are more offensive than others.’” Id. at 477
(quoting Erznoznik v. Jacksonville, 422 U.S. 205, 209
(1975)). That importance is never higher when, as
here, the intended audience is about to engage in an
imminent and irreversible action that they could
choose not to take simply by hearing the speaker’s
words of hope. Of course, when the government
opposes a message as the City of Pittsburgh does, its
temptation to use unconstitutional means to quash
the message abounds.
Sidewalk counselors too often face not only
disapproval, but as here, government silencing
through laws aimed at preventing them from
reaching their intended audience. Because sidewalk
counselors need physical proximity to effectively
reach their audience, the City has effectively silenced
them. What the sidewalk counselors were subjected
to by means of the City’s ordinance is worse than the
laws and injunctions involved in this Court’s leading
buffer zone cases. As such, the City’s ordinance was
not narrowly tailored.

7

I. Buffer zones affect sidewalk counselors in
unique ways such that the effect on them is
particularly detrimental to their speech.
The uncontroverted evidence is that sidewalk
counselors were targeted by this law. See JA402a.3
That is precisely what the sidewalk counselors have
experienced from the City, since both parties have
3

It is fair to conclude that Petitioners experienced content
discrimination. As this Court stated in McCullen,
[T]he Act would not be content neutral if it were
concerned with undesirable effects that arise
from “the direct impact of speech on its audience”
or “[l]isteners’ reactions to speech.” If, for
example, the speech outside Massachusetts
abortion clinics caused offense or made listeners
uncomfortable, such offense or discomfort would
not give the Commonwealth a content-neutral
justification to restrict the speech.
573 U.S. at 481 (quoting Boos v. Barry, 485 U.S. 312, 321 (1988)).
However, the Pittsburgh ordinance’s sponsor acknowledged that
they were “protecting the listen[er] from unwanted
communication” outside of abortion clinics. JA402a. That is why
abortion was the only topic of discussion banned from within the
buffer. See Petition for Writ of Certiorari at 8. Moreover, because
the outward indicia typical of a demonstration or picketing are
not required under the law, enforcement authorities necessarily
must examine the content of one-on-one conversations. It is,
therefore, necessarily content based. See McCullen, 573 U.S. at
479 (quoting League of Women Voters of Cal., 468 U.S. at 383,
377 for the proposition that the “Act would be content based if it
required ‘enforcement authorities’ to ‘examine the content of the
message that is conveyed to determine whether’ a violation has
occurred’”).

8
agreed that the ordinance’s broad language prohibits
the sidewalk counselors’ abortion related speech, but
not other speech. See Petition for Writ of Certiorari at
8. For that reason, the sidewalk counselors have
chosen to stay outside of the buffer zone rather than
be arrested. See id.
The problem, of course, is that sidewalk counselors
are engaged in conversational speech, not the kind of
speech that can occur a distance away. This Court
aptly describes
“sidewalk counseling,” which involves
offering information about alternatives
to abortion and help pursuing those
options. . . . McCullen, for instance, will
typically initiate a conversation this
way: “Good morning, may I give you my
literature? Is there anything I can do for
you? I’m available if you have any
questions.” If the woman seems
receptive,
McCullen
will
provide
additional information. McCullen and
the other petitioners consider it
essential to maintain a caring demeanor,
a calm tone of voice, and direct eye
contact during these exchanges.
McCullen, 573 U.S. at 472-73 (citations omitted).
Likewise, a sidewalk counselor and board member
of amicus describes the heart behind and the methods
of sidewalk counseling this way:

9
Women often choose abortion out of
fear and a lack of resources. They are
told that they aren’t wealthy enough, old
enough, young enough, or strong enough
or that they will be alone. A sidewalk
counselor enters at that moment. With
quiet, calm, compassionate words and
body language, this person shares what
is available to this terrified mother.
They share about hope, housing,
financial support, community, and a
baby shower, and they do this quietly on
the sidewalk. If a sidewalk counselor is
far away, it is impossible to share this
message in the same way. Women
deserve to know all of their options
before they choose to make such a life
altering choice.
Therefore, when the City has used the broadly
worded ordinance to prohibit sidewalk counselors
from being within the 15-foot buffer zone, the City has
separated them from their audience and has
significantly burdened their speech. Buffer zones
have compromised their “ability to initiate the close,
personal conversations that they view as essential to
‘sidewalk counseling.’” Id. at 487. This Court noted
the “toll” that buffer zones take on sidewalk
counseling:
Although McCullen claims that she has
persuaded about 80 women not to
terminate their pregnancies since the

10
2007 amendment, she also says that she
reaches “far fewer people” than she did
before the amendment. Zarrella reports
an even more precipitous decline in her
success rate: She estimated having
about 100 successful interactions over
the years before the 2007 amendment,
but not a single one since.
Id. at 487-88 (internal citations omitted). The
sidewalk counselors in Pittsburgh find it similarly
difficult to engage in quiet, one-on-one conversations
with women entering the clinic. See Petition for Writ
of Certiorari at 9.
Buffer zones also make it substantially more
difficult for sidewalk counselors to distribute
literature to arriving patients. The Court in McCullen
found the buffer zone deprived sidewalk counselors of
“their two primary methods of communicating with
patients.” McCullen, 573 U.S. at 488. As this Court
found in McCullen, lower Courts and opponents of
sidewalk counselors are wrong to downplay these
burdens on sidewalk counselors’ speech. “[W]hile the
First Amendment does not guarantee a speaker the
right to any particular form of expression, some forms
— such as normal conversation and leafletting on a
public sidewalk — have historically been more closely
associated with the transmission of ideas than
others.” Id.
This Court has routinely recognized the First
Amendment importance of the manner of speech in
which sidewalk counselors and others like them

11
engage. In Schenck v. Pro-Choice Network of W. N.Y.,
519 U.S. 357 (1997), this Court struck down “floating
buffer zones” because they burdened more speech
than necessary — in part because it prevented
protestors “from communicating a message from a
normal conversational distance or handing leaflets to
people entering or leaving the clinics who are walking
on the public sidewalks.” Id. at 377. “Leafletting and
commenting on matters of public concern are classic
forms of speech that lie at the heart of the First
Amendment. . . .” Id. Likewise, in the context of
petition campaigns, this Court “observed that ‘one-onone communication’ is ‘the most effective,
fundamental and perhaps economical avenue of
political discourse.’” McCullen, 573 U.S. at 488
(quoting Meyer v. Grant, 486 U.S. 414, 424 (1988)).
Of concern to amicus is that sidewalk counselors
like Petitioners end up experiencing buffer zones like
this — to the detriment of serving the women outside
the clinic — but have no recourse. Even now, the
Third Circuit suggests that Petitioners have
experienced no harm from the ordinance, when
instead they have missed numerous opportunities to
serve out of fear that they would be arrested under
the ordinance.

12
II. The buffer zone at issue is just as or more
offensive to free speech than those in Madsen,
Schenk, Hill, and McCullen.
A. The Pittsburgh buffer zone is just as
offensive as the buffer zones struck down
in Madsen and both distinguishable and
more offensive than the portion of buffer
zone upheld in Madsen.
In Madsen v. Women’s Health Ctr., 512 U.S. 753
(1994), this Court upheld in part and struck down in
part a Florida court’s injunction limiting the locations
and manner of demonstrations by specific protestors
at a single abortion clinic. The injunction was issued
as a result of several incidents where the protestors
blocked clinic access. They also engaged in loud
chanting and singing, using amplifying devices and
causing a significant increase in the noise level such
that they could be heard from within the clinic. Initial
injunctions did not resolve the issue, and public
access to the clinic continued to be impeded, so the
Florida court issued a broader injunction. See id. at
758. The injunction prohibited “congregating,
picketing, patrolling, demonstrating or entering” any
portion of the public right-of-way or private property
within 36 feet of the property line of the clinic. Id. at
768. Because the buffer zone also applied to private
property to the north and west of the clinic property,
the Madsen Court examined each portion of the buffer
zone separately. Id.

13
The Madsen Court upheld the portion of the 36foot buffer zone from those protesters around the
clinic entrance finding that it burdened no more
speech than necessary to accomplish the
governmental interest in protecting access to the
clinic. Still, the Court noted that the “type of focused
picketing prohibited by [the state court injunction] is
fundamentally different from more generally directed
means of communication that may not be completely
banned in [public places].” Id. at 769 (quoting Frisby
v. Schultz, 487 U.S. 474, 486 (1988)). In making a
distinction between “handbilling and solicitation” on
one hand and the speech of protesters on the other,
the Court recognized that the speech Petitioners want
to engage in requires greater protections. Id. Indeed,
buffer zones burden sidewalk counselors far more
severely than protestors. In Madsen, the Court noted
that “one of petitioners’ witnesses . . . conceded that
the buffer zone was narrow enough . . . [that]
[p]rotesters . . . can still be seen and heard.” Id. at 770.
While “protesters” who engaged in some forms of
protest may still be able to be seen and heard and thus
exercise their First Amendment rights with some
buffer zones, sidewalk counselors cannot. As this
Court recognized in McCullen, a buffer zone places a
significant burden on the manner that sidewalk
counselors exercise free speech.
The Madsen Court struck down the portion of the
buffer zone located on two other sides of the clinic
because there was no evidence that the presence of
protestors on that property limited public access to

14
the clinic and, therefore, that restriction was more
burdensome to free speech than necessary to protect
public access. Id. at 771. The buffer zone restriction
in Pittsburgh is just as offensive to the First
Amendment as the portion of buffer zone that was
struck down in Madsen. As in the case of Madsen,
Pittsburgh lacked evidence that public access was
being prevented by those being burdened by the
ordinance — in this case sidewalk counselors. Absent
incidents that regularly thwart the governmental
interest such that even standard entrance/exit
blocking ordinances are impossible to enforce, the
government has no basis for implementing what
should always be an absolutely last-ditch effort —
speech restrictions. Even if blockage were a problem,
the City’s restrictions are not narrowly tailored. 4
4

Even in the case of those other than the Pittsburgh sidewalk
counselors, there was no evidence that genuine attempts at
prosecuting the wrongdoers were being made. Though buffer
zones are easier to enforce than laws directed at actual
wrongdoing, such as blocking entrance ways, efficiency is not a
First Amendment value. See McCullen, 573 U.S. at 495.
Moreover, the Court was not convinced that actual application
of non-speech related laws would be too difficult:
In any case, we do not think that showing
intentional obstruction is nearly so difficult in
this context as respondents suggest. To
determine whether a protestor intends to block
access to a clinic, a police officer need only order
him to move. If he refuses, then there is no
question that his continued conduct is knowing
or intentional.
Id.

15
The Court also struck down a no-approach zone
and its consent requirement as being more
burdensome to speech than necessary. “[I]t is difficult,
indeed, to justify a prohibition on all uninvited
approaches of persons seeking the services of the
clinic, regardless of how peaceful the contact may be,
without burdening more speech than necessary to
prevent intimidation and to ensure access to the
clinic.” Madsen, at 774. “As a general matter, we have
indicated that in public debate our own citizens must
tolerate insulting, and even outrageous, speech in
order to provide adequate breathing space to the
freedoms protected by the First Amendment.” Id.
(quoting Boos, 485 U.S. at 322) (internal quotation
marks omitted). “The ‘consent’ requirement alone
invalidates this provision; it burdens more speech
than is necessary to prevent intimidation and to
ensure access to the clinic.” Id. The present situation
is worse, because sidewalk counselors are not
permitted to speak even with consent.
B. The Pittsburgh ordinance is just as
offensive to free speech as the floating
buffer zone that was struck down in
Schenck and is both distinguishable and
more offensive than the fixed buffer zone
upheld in Schenck.
In Schenck v. Pro-Choice Network of W. N.Y., 519
U.S. 357 (1997), this Court upheld provisions
imposing a “fixed buffer zone” but struck down a
“floating buffer zone” on demonstrations outside
abortion clinics. Similar to the facts in Madsen, the

16
clinics in Schenck were subjected to numerous largescale blockades. Incidents of trespassing and
aggressive behavior, including pushing, shoving, and
grabbing, occurred at the clinics. See id. at 362-363.
Local police were “unable to respond effectively” to the
protests. Id. In response, the U.S. District Court for
the Western District of New York issued an
injunction. Three aspects of that injunction were
challenged in this Court: (1) the floating 15-foot buffer
zones around people and vehicles seeking access to
the clinics; (2) the fixed 15-foot buffer zones around
the clinic doorways, driveways, and parking lot
entrances; and (3) the “cease and desist” provision
that forced sidewalk counselors who are inside the
buffer zones to retreat 15 feet from the person being
counseled once the person indicates a desire not to be
counseled. Id. at 371.
The ban on demonstrating within a “fixed buffer
zone” of 15 feet of entrances was upheld on the record
of prior criminal activity and the government’s
interest in ensuring access to the clinic. Id. at 376.
The Schenck court, however, struck down the
“floating buffer zones” around people entering and
leaving the clinics because they burdened more
speech than is necessary to serve the relevant
governmental interests. Id at 377. “The floating
buffer zones prevent [sidewalk counselors] . . . from
communicating a message from a normal
conversational distance or handing leaflets to people
entering or leaving the clinics who are walking on the
public sidewalks. This is a broad prohibition, both

17
because of the type of speech that is restricted and the
nature of the location.” Id.
It is clear that the actions of a minority of
protestors in blocking access to clinics and
threatening patients and employees of a clinic is not
activity that is protected under the First Amendment.
These actions are at odds with the behavior of most
protesters, and certainly at odds with the practice of
sidewalk counselors who seek quiet, respectful, and
caring one-on-one communication. The government
may have a legitimate interest in stopping the
blockades and threats but not the latter method of
communication. There is no harm to public safety or
threat to safe access to clinics with the manner that
the Pittsburgh sidewalk counselors wish to engage.
Unlike the situation in Schenck, the buffer zone
cannot be justified due to safety or access issues as
the City has not pointed to any such incidents. The
15-foot permanent buffer zone injunction upheld in
Schenck was supported by the fact of the protestors’
prior unlawful conduct. It was not a broad restriction
that applied to unnamed and future individuals who
potentially wanted to engage in only lawful conduct,
but rather a narrow injunction applied only to
protestors who engaged in prior unlawful activity.5
5

In McCullen the court explained the vital difference between
narrow injunctions versus broad laws, like the one at issue in
Pittsburgh:
We have previously noted the First Amendment
virtues of targeted injunctions as alternatives to
broad, prophylactic measures. Such an

18
Even if protestors or demonstrators had created
safety or access issues, it would be unconstitutionally
overbroad to impose limitations against another
group of protestors, and even more so to impose those
limitations on people who simply engage in one-onone conversation. The City could limit behavior that
undermines safety and access without targeting
speech as it has done here.
C. The buffer zone in Pittsburgh is
distinguishable from and more offensive to
free speech than the buffer zone in Hill.
In Hill v. Colorado, 530 U.S. 703 (2000), this Court
reviewed a Colorado statute that regulated speechrelated conduct within 100 feet of the entrance to any
health care facility. The statute made it unlawful
injunction “regulates the activities, and perhaps
the speech, of a group,” but only “because of the
group’s past actions in the context of a specific
dispute between real parties.” Madsen, 512 U. S.,
at 762, 114 S. Ct. 2516, 129 L. Ed. 2d 593
(emphasis added). Moreover, given the equitable
nature of injunctive relief, courts can tailor a
remedy to ensure that it restricts no more speech
than necessary. See, e.g., id., at 770, 114 S. Ct.
2516, 129 L. Ed. 2d 593; Schenck, 519 U.S., at
380-381, 117 S. Ct. 855, 137 L. Ed. 2d 1. In short,
injunctive relief focuses on the precise
individuals and the precise conduct causing a
particular problem. The Act, by contrast,
categorically excludes non-exempt individuals
from the buffer zones, unnecessarily sweeping in
innocent individuals and their speech.
See McCullen, 573 U.S. at 492-93.

19
within the regulated areas for any person to
“knowingly approach” within eight feet of another
person, without that person’s consent, “for the
purpose of passing a leaflet or handbill to, displaying
a sign to, or engaging in oral protest, education, or
counseling with such other person.” Id. at 707.
Although the statute prohibited speakers from
approaching unwilling listeners, it did not require a
standing speaker to move away from anyone passing
by. Nor did it place any restriction on the content of
any message that anyone may wish to communicate
to anyone else, either inside or outside the regulated
areas. Id. at 707-708.
The petitioners in Hill, like Petitioners here and
the sidewalk counselors associated with amicus, were
engaged in sidewalk counseling, which consisted of
efforts “to educate, counsel, persuade, or inform
passersby about abortion and abortion alternatives by
means of verbal or written speech, including
conversation and/or display of signs and/or
distribution of literature.” Id. at 708. Their activities
frequently entailed being within eight feet of other
persons, and their fear of prosecution under the
Colorado statute caused them “to be chilled in the
exercise of fundamental constitutional rights.” Id. at
708-709.
In upholding the 8-foot “floating buffer zone,” the
Hill Court focused on whether there was an adverse
impact on the three types of communication (sign
display, leafletting, and oral speech) regulated by the
statute.

20
With respect to oral statements, while finding that
the 8-foot distance “certainly can make it more
difficult for a speaker to be heard,” this Court found
that the zone would allow a speaker to communicate
at a “normal conversational distance.” Id. at 726-727.
Additionally, the Court noted that the statute allowed
the speaker to remain in one place while others
passed within 8 feet and noted that only attempts to
address unwilling listeners were affected by the
buffer. Id. at 727.
Regarding leafletting, the Court noted the “burden
on the ability to distribute handbills is more serious
because it seems possible that an 8-foot interval could
hinder the ability of a leafletter to deliver handbills to
some unwilling recipients.” Id. However, the Court
ultimately found that a leafletter could stand near the
path of oncoming pedestrians, proffer their material,
which could be easily accepted. Id.
Hill’s restriction, while still highly problematic, is
far less offensive to free speech than the present
ordinance because Hill’s statute allows First
Amendment activity within the 8-foot zone if they
have consent of the recipient of the speech. Also, Hill’s
statute allows the speaker to remain in one place
while others pass within 8 feet of the speaker.
Pittsburgh’s ordinance, on the other hand, restricts
counselors to a 15-foot buffer. This is a noticeable
difference to an 8-foot buffer which places significant
limitations on the ability of counselors to conduct
quiet, one-on-one conversations.

21
The Court in Hill recognized the serious burden
that an 8-foot interval creates on oral communication
and handbilling. How much greater is the burden on
the ability to speak and distribute handbills at a 15foot interval. The “First Amendment protects the
right of every citizen to ‘reach the minds of willing
listeners and to do so there must be opportunity to
win their attention.’’’ Id. at 728 (discussing Heffron v.
International Soc. for Krishna Consciousness, Inc.,
452 U.S. 640, 655 (1981) (quoting Kovacs v. Cooper,
336 U.S. 77, 87 (1949))). The ordinance in Pittsburgh
barely allows counselors the opportunity to get
attention, let alone win the attention of those they are
seeking to communicate with because there is such a
great distance that requires a counselor to either raise
their voice or wave their arms, which is contrary to
the quiet, one-on-one manner of communication that
the counselors need to use to be effective.
Hill places restrictions only on speech addressed
to unwilling listeners, whereas the City of Pittsburgh
bans speech directed at all listeners regardless of
consent. The harm in being restricted from speaking
to those who are willing or who may become willing to
listen if given enough time is significant. The
sidewalk counselors in Pittsburgh, similar to those
working with amicus, have had great success in
reaching many visitors to abortion clinics with their
message. For the City to restrict speech that a listener
is willing to hear is undoubtedly an unconstitutional
restriction on free speech.

22
D. The ordinance in Pittsburgh is just as
offensive to Free Speech as the buffer
zone struck down by this Court in
McCullen.
In McCullen, this Court reviewed a Massachusetts
statute that made it a crime to knowingly stand on a
“public way or sidewalk” within 35 feet of an entrance
or driveway to any place, other than a hospital, where
abortions are performed. McCullen, 573 U.S. at 469.
Petitioners in McCullen were individuals who
approached and talked to women outside such
facilities and attempted to dissuade them from having
abortions. Id.
McCullen held the statute was not “narrowly
tailored,” id. at 493, and imposed “serious burdens on
petitioners’ speech,” id. at 487. At each of the clinics
where petitioners attempted to counsel patients, the
zones carved out a significant portion of the adjacent
public sidewalks, pushing petitioners well back from
the clinics’ entrances and driveways. Id. The zones
thereby compromised petitioners’ ability to initiate
the close, personal conversations that they viewed as
essential to “sidewalk counseling.” Id. Petitioners in
McCullen testified that they often could not
distinguish patients from passersby in time to initiate
a conversation before the patient entered the buffer
zone. And even when petitioners were able to begin a
conversation, they had to abruptly stop at the painted
border, which they believed caused them to appear
“untrustworthy” or “suspicious.” Id. Given those
limitations, petitioners often had to raise their voices

23
at patients from outside the zone, which is a manner
of communication sharply at odds with the
compassionate message they wished to convey. Id.
The McCullen court found these burdens took a toll
on petitioners because petitioners reached “far fewer
people” than they did before the restriction. Id.
The ordinance in Pittsburgh is just as restrictive
to sidewalk counselors’ free speech as the statute in
McCullen. Similar to the counselors in McCullen, the
sidewalk counselors in Pittsburgh want to engage in
personal, caring, one-on-one conversations. Likewise,
they are significantly burdened in their ability to
quietly engage in conversation if they are forced to
raise their voices in order to be heard. “If all that
women can see and hear are vociferous opponents of
abortion, then the buffer zones have effectively stifled
petitioners’ message.” Id. at 489-490. A 15-foot
distance does not allow for a normal one-on-one
conversation, so like the counselors in McCullen,
Petitioners will be deprived of their primary method
of communicating with patients if a buffer zone is
upheld.
What Petitioners have experienced under
Pittsburgh’s ordinance is at least as sympathetic as
what was experienced in buffer zones in this Court’s
principal buffer zone cases. It has been worse than the
situations in which buffer zones have been upheld,
because here sidewalk counselors have no adequate
means of communication to those they wish to serve.

24
CONCLUSION
The sidewalk counselors associated with amicus
request that this Court grant certiorari in order to
clarify and effectuate the protections for core speech
upheld by this Court’s precedents and to prevent the
same from being eroded by the courts of appeals.
Respectfully submitted,
RANDALL L. WENGER
Counsel of Record
JEREMY L. SAMEK
Independence Law Center
23 North Front Street, First Floor
Harrisburg, PA 17101
(717) 657-4990
rwenger@indlawcenter.org
ANDREA L. SHAW
Law Office of Andrew H. Shaw, P.C.
2011 W. Trindle Road
Carlisle, PA 17013
(717) 243-7135
andrea@ashawlaw.com
Attorneys for Amicus Curiae
Dated: April 29, 2020

